VISA CLASSIC PLATINUM
F1
CREDIT CARD ACCOUNT OPENING DISCLOSURE
®

This Disclosure is incorporated into and becomes part of your LOANLINER Consumer Credit Card Agreement.
Please keep this attached to your LOANLINER Consumer Credit Card Agreement.
Interest Rates and Interest Charges
Annual Percentage Rate (APR) for
Purchases
APR for Balance Transfers
APR for Cash Advances
Penalty APR and When it Applies
Paying Interest

For Credit Card Tips from the Consumer
Financial Protection Bureau
Fees
Set-up and Maintenance Fees
- Annual Fee
- Account Set-up Fee
- Program Fee
- Participation Fee
- Additional Card Fee
- Application Fee
Transaction Fees
- Balance Transfer Fee
- Cash Advance Fee
- Foreign Transaction Fee
- Transaction Fee for Purchases
Penalty Fees
- Late Payment Fee
- Returned Payment Fee

14.88%
F2
14.88%
F3
14.88%
F4
None
F5
Your due date is at least 25 days after the close of each billing cycle.
We will not charge you any interest on purchases if you pay your entire
balance by the due date each month. We will begin charging interest on
balance transfers and cash advances on the transaction date.
To learn more about factors to consider when applying for or
using a credit card, visit the website of the Consumer Financial
Protection Bureau at http://www.consumerfinance.gov/learnmore.

None
F6
None
F7
None
F8
None
F9
None
F10
None
F11

None
F12
3.00%
F13
1.00%
F14
None
F15

of the amount of each cash advance
of each transaction in U.S. dollars

Up to $20.00
F16
Up to $25.00
F17

How We Will Calculate Your Balance: We use a method called “average daily balance (including new purchases).” See
your account Agreement for more details.
Billing Rights: Information on your rights to dispute transactions and how to exercise those rights is provided in your
account Agreement.
OTHER DISCLOSURES
Late Payment Fee
Returned Payment Fee
Statement Copy Fee
Document Copy Fee
Rush Fee
Emergency Card Replacement Fee

©CUNA Mutual Group 2009, 10, 12 All Rights Reserved

F18
or the amount of the required minimum payment, whichever
$20.00
is less, if you are five or more days late in making a payment.
F19
or the amount of the required minimum payment, whichever
$25.00
is less.
F20
$5.00
F21
$5.00
F22
$25.00
F23
$165.00

02100681-MXC45-P-1-101315 (MXC453 CCM003)-e

SEE NEXT PAGE for more important information about your account.

PIN Replacement Fee
Card Replacement Fee
Express Shipping Fee

F24
$5.00
F25
$10.00
F26
$25.00

Collection Costs: You promise to pay all costs of collecting the amount you owe under this Agreement to the extent
permitted by state law.
Periodic Rates:
The Purchase APR is 14.88%
F27
which is a daily periodic rate of 0.0413%
F28
.
The Balance Transfer APR is 14.88%
F29
which is a daily periodic rate of 0.0413%
F30
.
The Cash Advance APR is 14.88%
F31
which is a daily periodic rate of 0.0413%
F32
.

02100681-MXC45-P-1-101315 (MXC453 CCM003)-e

